No. 20- 637
INTHE

�upr.etttt <!lourt of tJr.e �nit.eb �tat.es
DARRELL HEMPHILL,

v.

Petitioner,

STATE OF NEW YORK,

Respondent.
On Petition for a Writ of Certiorari
to the Court of Appeals of New York

CERTIFICATE OF SERVICE
As permitted by the Order of the Court, dated April 15, 2020, the
parties to this action have agreed to electronic service. The undersigned
certifies that he has this 27th day of February 2021, caused one copy of
Respondent's Brief in Opposition to the Petition for a Writ of Certiorari as
well as one copy of the Supplemental Appendix to be served via
electronic mail on the below-named Counsel of Record for Petitioner, and
further certifies that all persons required to be served have been served:

Jeffrey L. Fisher, Esq.

Counsel for Petitioner

jlfisher@law.stanford.edu

Noah J. Chamoy

Counsel for Respondent

